No. ____________
In the

Supreme Court of the United States
CARLOS MICHAEL LOPEZ
Petitioner,
v.
THE STATE OF TEXAS
Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The Petitioner asks leave to file the attached petition for writ of certiorari
without prepayment of costs and to proceed in forma pauperis.
Petitioner has previously been granted leave to proceed in forma pauperis by
the 262nd District Court of Harris County, Texas. Petitioner’s affidavit or
declaration is not attached because the trial court appointed counsel in the current
proceeding and a copy of the order appointing is appended.
Respectfully submitted,
/s/ Nicholas Vitolo
Nicholas C. Vitolo
Counsel of Record
HARRIS COUNTY PUBLIC DEFENDER
1201 Franklin St., 13th Floor
Houston, Texas 77002
(713) 274-6966
nick.vitolo@pdo.hctx.net

86

